No. ______
In the

Supreme Court of the United States
__________________

CHARLES DANIELS, DIRECTOR, et al.,
Petitioners,
v.
RONALD ROSS,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether Fed. R. Civ. P. 10(c) permits a habeas
petitioner to rely on a state court order appended to,
but never mentioned in, his original federal habeas
petition to supply the core operative facts necessary to
satisfy the relation-back standard set forth in Mayle v.
Felix, 544 U.S. 644 (2005).

ii
PARTIES TO THE PROCEEDING
Petitioner Charles Daniels, Director of the Nevada
Department of Corrections, is substituted for Warden
Brian Williams from the proceedings below. Petitioner
Aaron D. Ford, Attorney General of the State of
Nevada, is a party to the proceeding not listed in the
caption. He joins this petition in full. Respondent
Ronald Ross is an inmate in the custody of the Nevada
Department of Corrections, though he is currently
housed in the privately run Saguaro Correctional
Center in Eloy, Arizona.
RELATED PROCEEDINGS
State of Nevada v. Ronald Ross., No. 07-F-09465-x
Justice Court, Las Vegas Township, Clark
County, Nevada – bound over to the district
court – August 11, 2007
State of Nevada v. Ronald Ross., No. C236169
Eighth Judicial District Court of the State of
Nevada in and for the County of Clark –
Judgment of Conviction – April 16, 2009
Ronald Ross v. State of Nevada, No. 52921
Nevada Supreme Court – Order of Affirmance –
November 8, 2010
Ronald Ross v. D.W. Neven, et al., C236169
Eighth Judicial District Court of the State of
Nevada in and for the County of Clark – Notice
of Entry of Findings of Fact, Conclusions of Law,
and Order – June 17, 2013

iii
Ronald Ross v State of Nevada, No. 63624
Nevada Supreme Court – Order of Affirmance –
July 22, 2014
Ronald Ross v. Warden Williams, et al., No. 2:14-cv015267-JCM-PAL – Judgment dismissing
petition as untimely – August 29, 2016
Ronald Ross v. Warden Williams, et al.
United Sates Court of Appeals for the Ninth
Circuit – Opinion Reversing and Remanding –
February 24, 2020

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . 8
I. The Majority’s New Rule Conflicts with Mayle’s
Recognition that Overly Broad Application of
Relation Back Undermines the Habeas Rules
and the Statute of Limitation. . . . . . . . . . . . . . . 10
II. This Court Should Not Wait to Correct the
Conflict Created by the En Banc Majority’s New
Rule . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(February 24, 2020) . . . . . . . . . . . App. 1

v
Appendix B Opinion in the United States Court of
Appeals for the Ninth Circuit
(July 19, 2018). . . . . . . . . . . . . . . App. 52
Appendix C Order in the United States District
Court for the District of Nevada
(August 26, 2016) . . . . . . . . . . . . App. 95
Appendix D Judgment in the United States
District Court for the District of Nevada
(August 29, 2016) . . . . . . . . . . . App. 108

vi
TABLE OF AUTHORITIES
CASES
Banister v. Davis,
140 S. Ct. 1968 (2020). . . . . . . . . . . . . . . . . . . . . . 1
Dye v. Hofbauer,
546 U.S. 1 (2005). . . . . . . . . . . . . . . . . . . 5, 6, 7, 12
Mayle v. Felix,
544 U.S. 644 (2005). . . . . . . . . . . . . . . . . . . passim
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2244 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
RULES
Fed. R. Civ. P. 10(c) . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 15(c) . . . . . . . . . . . . . . . . . . . . 6, 12, 13
Rules Governing Section 2254 Cases in the United
States District Courts. . . . . . . . . . . . . . . . . passim
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITY
Advisory Committee Notes to Habeas
Rule 2. . . . . . . . . . . . . . . . . . . . . . . . . . 9, 12, 14, 15

1
PETITION FOR WRIT OF CERTIORARI
Just last month, this Court again recognized that
the Federal Rules of Civil Procedure (hereinafter “the
Civil Rules”)1 apply in federal habeas corpus
proceedings, so long as those rules do not conflict with
the statutes and rules that are specific to conducting
federal habeas cases. Banister v. Davis, 140 S. Ct.
1968 (2020). As the dissent in this case methodically
lays out, the en banc majority’s analysis fails to adhere
to that principle. Instead, in trying to save Ross’s
petition from dismissal under the statute of limitations,
the court below forced habeas procedure to fit into
general standards for applying the Civil Rules.
The en banc majority applied the analysis required
by this Court’s relevant precedents backwards by not
properly considering how habeas procedure and
practice must inform the application of the Civil Rules
in habeas proceedings. And in the process, they
jammed the proverbial square peg into a round hole.
This Court should not allow this en banc published
opinion to stand because, contrary to holdings of this
Court, it creates numerous conflicts with various
provisions of the Rules Governing Section 2254 Cases
in the United States District Courts (hereinafter “the
Habeas Rules”)2, with the legislative intent of the
1

For the sake of expedience and clarity, throughout this petition
particular rules of the Federal Rules of Civil Procedure will be
referred to as “Civil Rule __.” For example Fed. R. Civ. P. 10(c)
will be referred to as Civil Rule 10(c).
2

Similar to references to the Civil Rules, any particular Habeas
Rules will be referred to as “Habeas Rule __.” For example, Rule

2
Antiterrorism and Effective Death Penalty Act of 1996
(hereinafter “AEDPA”), and general principles of
habeas review. See Sup. Ct. R. 10(c).
This Court should grant the petition.
OPINIONS BELOW
The original opinions in this matter, which have
since been withdrawn, were reported at Ross v.
Williams, 896 F.3d 958 (9th Cir. 2018). See also App.
52-94. The order withdrawing the original opinions
and granting en banc rehearing is reported at Ross v.
Williams, 920 F.3d 1222 (9th Cir. 2019). The opinions
from rehearing en banc are reported at Ross v.
Williams, 950 F.3d 1160 (9th Cir. 2020). See also App.
1-51. The district court’s order and judgment are
unreported. See App. 95-109.
JURISDICTION
After the Ninth Circuit granted Ross’s petition for
rehearing en banc, it issued its opinion and judgment
on February 24, 2020. App. 1. This Petition is timely
filed under Supreme Court Rule 13 and this Court’s
order dated March 19, 2020, which extended the
deadline for filing any petition for writ of certiorari due
after the date of the order. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

2 of the Rules Governing Section 2254 Cases in the United States
District Courts will be referred to throughout this petition as
Habeas Rule 2.

3
STATUTORY PROVISIONS
Section 2244 of Title 28 provides, in part, that:
(d)(1) A 1-year period of limitation shall apply to
an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run
from the latest of—
(A) the date on which the judgment became
final by the conclusion of direct review or the
expiration of the time for seeking such
review;
...
(2) The time during which a properly filed
application for State post-conviction or other
collateral review with respect to the pertinent
judgment or claim is pending shall not be
counted toward any period of limitation under
this subsection.
STATEMENT OF THE CASE
A Nevada jury found Ross guilty of “two counts of
burglary and one count each of larceny from the
person, possession of credit card without the
cardholder’s consent, fraudulent use of a credit card,
theft, and conspiracy to commit larceny.” App. 97.
Based on his prior criminal history, the state district
court sentenced Ross under Nevada’s habitual offender
statute and imposed a sentence of life with the
possibility of parole beginning after service of twenty
years. App. 7. Ross appealed, and the Nevada
Supreme Court affirmed. App. 7.

4
Ross filed a state post-conviction petition, which
identified five claims for relief. Ross attached to the
petition a twenty-two page, handwritten memorandum
that provided particularized factual background on
each of Ross’s claims for relief, which Ross repeatedly
referenced in his state petition. App. 30, 56.
The state district court appointed counsel to assist
Ross, who filed a supplemental petition presenting six
specific claims for relief and a claim of cumulative error
regarding all the allegations of ineffective assistance of
counsel. App. 56. The state district court denied the
petition. App. 56.
Ross appealed. App. 56. In an order that rejected
eight specific theories of ineffective assistance of
counsel, as well as Ross’s cumulative error theory, the
Nevada Supreme Court affirmed the denial of postconviction relief. App. 56.
Ross then filed a timely federal habeas petition,
using the form provided in the District of Nevada for
filing a pro se petition. App. 30. The form petition
directed Ross to attach all written state court decisions
to the petition and included detailed instructions on
how to allege a particular claim for relief. App. 30.
Using the template for alleging specific claims for
relief, Ross alleged “violations of his Fifth Amendment
right to due process, his Sixth Amendment right to
effective counsel, and his Fourteenth Amendment
rights to due process and equal protection.” App. 31.
And in the space where the template invited Ross to
assert a summary of the facts supporting his claim for
relief, Ross repeated substantially the same thing by

5
presenting eight conclusory statements as to why trial
counsel was ineffective without alleging any supporting
facts. App. 31-32.
In addition to filing the form petition, Ross filed a
handwritten affidavit, explaining the timing for filing
of his federal petition. In the affidavit, he relied upon
on the Nevada Supreme Court’s order of affirmance
and the remittitur from the state habeas appeal to
show that he was not on the distribution list for either
document. App. 32. And he further averred that he
did not obtain a copy of the order of affirmance until
about a month and half after the Nevada Supreme
Court issued the order of affirmance. App. 59.
After reviewing Ross’s petition, the district court
appointed counsel. App. 59. Although it was untimely,
Ross filed an amended petition that alleged eleven
grounds for relief. App. 59-60.
The State moved to dismiss Ross’s amended
petition, including asserting that the amended petition
is untimely. App. 60. Ross responded that he could
overcome the statute of limitations, citing Dye v.
Hofbauer, 546 U.S. 1 (2005), to argue that he
incorporated the facts from the attached order of
affirmance into his original petition. App. 100.
The federal district court granted the motion to
dismiss. In particular, the court determined that
Ross’s original petition did not include any facts at all
and rejected Ross’s argument based on Dye because
Ross did nothing that would have “alerted the court to
a desire that petitioner was trying to make the Nevada
Supreme Court’s rulings part of his claims.” App. 101.

6
But the district court granted a certificate of
appealability on the issue, and Ross appealed. App.
102.
Initially, in a split-decision, a panel of the Ninth
Circuit affirmed the judgment of the district court. The
dissent insisted that the requirement for a liberal
reading of pro se pleadings should require the court to
treat “Ross’s original petition as setting out the facts
discussed in the attached state-court decision.” App.
83. But the majority concluded that the original
petition was devoid of factual allegations supporting
Ross’s claims for relief and that he failed to actually
incorporate the state-court decision into his petition,
which he could have achieved by making clear
references to the document he intended to incorporate,
as this Court allowed in Dye. App at 81-82.
The majority began its analysis by surveying this
Court’s decision in Mayle before moving to a deeper
analysis of the Habeas Rules and their interaction with
Civil Rule 10(c). App. 60-68. Then the majority
methodically disposed of each of Ross’s and the
dissent’s arguments as to why Ross’s amended petition
relates back to the original petition. App. 68-81. As a
result, the divided panel affirmed the judgment of the
district court. App. 81-82.
However, the Ninth Circuit called for en banc
review of the panel ruling, and in an 8-3 decision, the
en banc panel reversed. App. 28. The en banc majority
began its analysis by focusing on general application of
Civil Rules 10(c) and 15(c), and the majority reasoned
that as long as Ross identified a claim in his petition,
Civil Rule 10(c) would allow Ross to rely on related

7
facts from the Nevada Supreme Court’s order of
affirmance to provide the factual bases for relation
back. App. 11- 17. Although the court rejected
arguments from the State and the dissenting judges
that the court’s new rule conflicts with the Habeas
Rules and the statute of limitations, App. 18-27, the
court expressly declined to identify a clear standard for
determining when a claim is adequately raised within
the petition to trigger its new rule, App. 17 n.6.
Additionally, it refused to provide any guidance in
defining what a written instrument is under Civil Rule
10(c). App. 18-19.
Judge Ikuta, joined by two other judges, dissented
while asserting that adopting Ross’s selective reading
of Civil Rule 10(c) conflicts with the Habeas Rules, the
AEDPA statute of limitations, and guidance this Court
gave in applying Civil Rule 10(c) to habeas cases in
Dye. App. 29. The dissent noted that the majority’s
new rule: (1) creates unnecessary tension between Civil
Rule 10(c) and various requirements of Habeas Rule 2;
(2) undermines the statute of limitations by allowing
savvy habeas petitions to assert broad claims for relief
while attaching documents to later use “as a wellspring
of facts to support new claims for relief in a subsequent
petition”; and (3) fails to follow this Court’s narrowed
application of Civil Rule 10(c) in Dye to maintain
consistency with Habeas Rule 2(c). App. 39-49.

8
REASONS FOR GRANTING THE PETITION
In Mayle v. Felix, 545 U.S. 644 (2005), this Court set
out the standard for when an untimely federal habeas
petition relates back to a prior timely filed petition.
The central governing principle of Mayle, and the
numerous other cases where this Court has applied the
Civil Rules to habeas corpus cases, is that the Civil
Rules may not be applied in a way that undermines the
statutes and rules that are specific to habeas corpus
proceedings. 545 U.S. at 654. In Mayle, this Court
ultimately determined that consideration of the Habeas
Rules and the policy underlying the statute of
limitations compelled a strict, narrow application of the
standard for relation back to avoid creating an
exception that would swallow AEDPA’s one-year
statute of limitation. Id. at 656-64.
Here, the en banc majority determined that Ross’s
petition could be saved from dismissal based on
principles of relation back because the materials Ross
filed with his petition included a state court decision
discussing some of the facts that relate to some of
Ross’s conclusory statements from the original petition.
And the lower court considered the state court decision
to be part of the petition under Civil Rule 10(c), despite
the fact that Ross made no reference to the order in his
petition.
As Judge Ikuta’s dissenting opinion establishes, the
majority of the en banc panel of the Ninth Circuit put
the cart before the horse by improperly focusing on the
scope of the Civil Rules generally and forcing that
application on habeas cases, rather than properly
assessing how habeas procedure and policy should

9
inform application of the Civil Rules to habeas cases.
App. 48. The lower court’s failure to adhere to the
general principles governing application of the Civil
Rules in habeas cases creates impermissible conflicts
between the Civil Rules and both the Habeas Rules and
the AEDPA statute of limitation.
Any single conflict between the Civil Rules and the
Habeas Rules or the statutes governing habeas review
ought to require reversal of the Ninth Circuit’s opinion.
But the new rule on relation back that the en banc
majority established below creates three conflicts with
controlling rules and statutes that are particularly
troublesome because those conflicts will actually do
more to harm than help pro se litigants. While the
Ninth Circuit strained logic to save Ross’s petition from
dismissal, they initiated an attack on aspects of the
Habeas Rules that were expressly adopted in 1976 with
the intent of lightening the burdens that habeas review
places on district court judges by making it easier to
identify the cases presenting claims that warrant closer
scrutiny. See Advisory Committee Notes to Habeas
Rule 2 (discussing the advantages of adopting the use
of a standard form petition, including saving time and
making petitions easier to read, which works to the
benefit of the courts and petitioners).
And while it is typically the practice of this Court to
allow an issue to percolate in the lower courts before it
will take the issue up on review, the time is ripe to take
this issue up now. As Judge Ikuta’s dissenting opinion
lays out, the Ninth Circuit’s overly broad and
unworkable rule will unduly burden lower courts with
issues that the Habeas Rules are designed to eliminate.

10
The Rules Committee already identified and sought to
prevent those issues when it adopted Habeas Rule 2
more than four decades ago. Allowing the Ninth
Circuit’s published en banc decision to remain in place
improperly undermines the authority of the Rules
Committee.
I. The Majority’s New Rule Conflicts with
Mayle’s Recognition that Overly Broad
Application of Relation Back Undermines the
Habeas Rules and the Statute of Limitation.
Tasked with addressing how to apply the standard
for relation back in habeas case, in Mayle, this Court
recognized the tension that an overly broad application
of relation back would create with the rules and
statutes governing federal habeas review. 545 U.S. at
656-57. In Mayle, the habeas petitioner proposed that
relation back should apply to any claim related to the
“petitioner’s trial, conviction, or sentence.” Id. at 656.
But agreeing with circuit courts that had been “mindful
of Congress’ decision to expedite collateral attacks,”
this Court adopted a much narrower standard. Id. at
657-64. In developing that standard, this Court
expressly linked the formulation of the relation back
standard to the requirement that petitioner’s
specifically plead the facts for each ground for relief.
Id. at 661. The “congeries” of operative facts a
petitioner would need to plead in support of a claim
alleged within the petition would make up the
“conduct, transaction, or occurrence” that an amended
claim must share in common with a claim from the
original petition in order to relate back. Id. As a
result, to show that his claims relate back, this Court

11
requires a petitioner to show that the operative facts of
an amended claim relate in both time and type to the
operative facts of a claim pleaded in a prior timely filed
petition. Id. at 650, 657.
This Court adopted that narrow standard and
rejected the “same trial, conviction, or sentence”
standard, recognizing that AEDPA’s statute of
limitations would have “slim significance” if a claim
would relate back “simply because they relate to the
same trial, conviction, or sentence as a timely filed
claim.” Mayle, 545 U.S. at 662. While creating
practical conflicts with the Habeas Rules, the lack of
guidance provided by the en banc majority in how its
new rule applies triggers concerns similar to those
expressed by this Court in Mayle.
First, the majority opinion fails to explain how an
attachment to a pleading that is part of the pleading
for “all purposes” can provide the “congeries of facts”
necessary to satisfy the relation-back standard of
Mayle, but those same “congeries of facts” are somehow
not part of the petition for otherwise determining
whether the petition satisfies Habeas Rule 2(c). This
cannot be true when Mayle expressly tied the relationback standard to the need for specific pleading in
habeas cases as a limiting principle that would prevent
application of relation back in a way that would
swallow the entire statute of limitation. Id. 656-57,
662-63.
But even without considering the inextricable
relationship this Court established between Habeas
Rule 2(c)’s pleading requirements and the relation-back
standard in Mayle, it defies logic to suggest that the

12
“all purposes” language from Civil Rule 10(c) can be
interpreted to make an exhibit part of the petition to
satisfy the relation-back standard but not to be
considered in whether the allegations of the petition
meet the pleading standard. “[A]ll purposes” does not
mean some purposes, it means all purposes.
Thus, if an exhibit is part of the petition for relation
back under Civil Rule 10(c), it must also be part of the
petition for purposes of considering whether the
petitioner satisfied the pleading requirements. But
without at least requiring a petitioner to make clear
references in his petition identifying whatever it is he
wishes to incorporate into the petition—as occurred in
Dye—the en banc majority’s application of Civil Rule
10(c) conflicts with Habeas Rule 2(c)’s requirement that
the petition plead “the facts supporting each ground.”
(emphasis added). Otherwise, courts and respondents
will be left to sift through anything a petitioner
attaches to a petition and guess what facts, if any, in
the attachments might support a claim for relief. But
the Rules Committee expressly sought to avoid that
result by (1) requiring the petitioner to plead that facts
he believes supports his claims for relief, and
(2) adopting the use of a form petition for pro se
petitioners. Advisory Committee Notes to Habeas Rule
2.
Second, turning to language from Civil Rule 15(c)
that a petitioner only needs to “attempt” to set out
conduct, transactions, or occurrences to provide for
relation back, the majority purported to limit its new
rule to situations where the attached exhibit includes
facts related to a claim identified in the petition. App.

13
16-17. But the majority evasively declined to define
exactly what a petitioner needs to do to adequately
raise a claim in the original petition that will then
allow an attachment to be considered for relation-back
purposes. App. 17 n.6.
The majority’s failure to set a clear, workable
standard for when a claim is “attempted to be set out”
under Civil Rule 15(c), renders this limit toothless.
Instead, as the dissent noted, the en banc majority’s
new rule creates the sort of boundless relation-back
standard this Court sought to avoid in Mayle. App. 4748. Without a clear standard for when a claim is
sufficiently laid out within the petition, the savvy
habeas petitioner is incentivized to allege broad,
undefined claims and attach a plethora of documents to
his petition in hopes that he can use facts from those
documents to present numerous new claims in a later
amended petition without concern for the statute of
limitation. A rule that would allow relation back under
such circumstances is hardly different than the
proposed rule this Court rejected in Mayle—that claims
arising from the same trial, conviction, or sentence
would relate back. Instead, it creates a conflict with
the Habeas Rules and undermines Mayle’s reliance on
the pleading standards to narrow application of
relation back in the habeas context.
Third, by not providing a clear standard for what
constitutes a written instrument, the Ninth Circuit has
left the courts and pro se petitioners with no guidance
as to what documents will be considered part of the
petition under Civil Rule 10(c). App. 18-19. The lack
of clear guidance in defining “written instrument”

14
creates yet another incentive for petitioners to attach
a plethora of documents to their pro se petitions,
hoping that at least some of what they attach will be
considered part of the petition, while completely
undermining the time-saving goals of the specific
pleading requirement and the use of the form petition.
As Judge Ikuta methodically laid out in her dissent,
the en banc majority’s new rule creates significant
conflicts with the Habeas Rules that will have real
consequences for district courts. App. 39-49. As a
result, the lower court’s en banc published opinion
conflicts with this Court’s decisions, Mayle in
particular, that require federal courts to look to habeas
policy and procedure when applying the Civil Rules in
habeas cases. This Court should grant the petition.
II. This Court Should Not Wait to Correct the
Conflict Created by the En Banc Majority’s
New Rule.
While it is typical for this Court to let issues
percolate in the lower courts before taking them up on
review, this Court should not wait to address an issue
like this that implicates something the Rules
Committee expressly addressed more than four decades
ago. The Advisory Committee Notes to Habeas Rule 2
establish that the Rules Committee adopted a specific
pleading requirement and mandated the use of form
petitions for pro se inmates in 1976 for a reason. Past
experience of the courts had shown that, without
proper guidance, habeas petitioners were prone to
filing petitions that “contained mere conclusions of law,
unsupported by any facts,” or “lengthy and often
illegible petitions, arranged in no logical order,” which

15
left district court judges spending “hours deciphering
them.” Advisory Committee Notes to Habeas Rule 2.
But the use of a standard form in a majority of the
districts around the country indicated that the use of
the form saved time and made pro se petitions easier
for the courts to read. And as the committee noted, the
use “of a standard form benefits the petitioner as well.”
Id.
The en banc majority’s new rule in this case winds
back the clock and incentivizes practices the Habeas
Rules are designed to prevent. For that reason alone,
this Court should grant this petition.
But the en banc majority’s failure to establish a
workable standard for when its new rule will actually
apply creates further problems that require this
Court’s intervention now. Without a clearly defined
standard that places real limits on when a petitioner
can later rely on appended exhibits to satisfy the
relation-back standard, the lower court’s opinion
squarely conflicts with this Court’s concerns in Mayle
that a boundless standard for relation back will
swallow the AEDPA statute of limitation. Mayle, 535
U.S. at 657, 661 (citation omitted).
The en banc majority’s new rule has real
consequences for all parties involved.
Most
significantly, this new standard for applying relation
back in the habeas context will work to the detriment,
not the benefit, of most habeas petitioners.
Overburdened district courts, forced to sift through a
multitude of documents attached to pro se habeas
petitions, will have difficulty separating the wheat
from the chaff, which harms the system as whole. This

16
Court’s intervention is warranted to correct the Ninth
Circuit’s departure from well-established precedent on
applying the Civil Rules in habeas cases.
CONCLUSION
The petition should be granted.
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
July 23, 2020

